USCA11 Case: 20-10321

Date Filed: 09/22/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10321-G
WARREN ROSENFELD,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeals from the United States District Court
for the Middle District of Florida

Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Warren Rosenfeld has tiled a motion for reconsideration of this Court's order dated August
20, 2020, denying his motion for a certificate of appealability, in order to appeal front the denial
of his 28 U.S.C. § 2255 motion to vacate. Because Rosenfeld has not alleged any points of law or
fact that this Court overlooked or misapprehended, his motion for reconsideration is DENIED.
His motion for rehearing en banc is DENIED as moot.

la

Case: 20-10321

Date Filed: 08/20/2020

Page: 1 of 7

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10321-G
WARREN ROSENFELD,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Warren Rosenfeld is a federal prisoner serving a total term of 60-months
imprisonment for one count of conspiring to commit wire fraud and four counts of
committing wire fraud and aiding and abetting wire fraud. After unsuccessfully
pursuing a direct appeal, Mr. Rosenfeld filed the present 28 U.S.C. § 2255 motion
to vacate, set aside, or correct his sentence, which, as amended, raised four claims
for relief:
(l)trial counsel was ineffective for providing confidential documents
outlining Mr. Rosenfeld’s defense strategy to the government;

2a

Case: 20-10321

Date Filed: 08/20/2020

Page: 2 of 7

(2) trial counsel was ineffective for revealing confidential discussions
regarding Mr. Rosenfeld’s contributions to an unrelated Secret
Service investigation during Mr. Rosenfeld’s direct examination at
trial;
(3)the District Court lacked subject-matter jurisdiction over Mr.
Rosenfeld’s case because the Assistant United States Attorneys
(“AUSA”) who signed his indictment were not validly appointed
AUSAs; and
(4)trial counsel was ineffective for failing to object to the absence of
subject-matter jurisdiction alleged in Claim 3.
After the government responded and Mr. Rosenfeld replied, the District Court
issued an order denying Mr. Rosenfeld’s amended § 2255 motion. The District
Court also denied Mr. Rosenfeld a certificate of appealability (“COA”). Mr.
Rosenfeld appealed and now moves this Court for a COA.
In order to obtain a COA, a movant must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The movant satisfies this
requirement by demonstrating that “reasonable jurists would find the District Court’s
assessment of the constitutional claims debatable or wrong” or that the issues
“deserve encouragement to proceed further.” Slack v. McDaniel. 529 U.S. 473,484,
120 S. Ct. 1595, 1603-04 (2000). When reviewing a District Court’s denial of a
§ 2255 motion, we review findings of fact for clear error and questions of law de
novo. Rhode v. United States. 583 F.3d 1289,1290 (11th Cir. 2009).
1. Claim 1

2

3a

Case: 20-10321

Date Filed: 08/20/2020

Page: 3 of 7

In his first § 2255 claim, Mr. Rosenfeld argued that his trial counsel provided
ineffective assistance by disclosing “confidential” documents (namely, exhibits 28,
158,192,462,466, and 474) to the government before trial. Specifically, he claimed
that his trial counsel “violated attorney-client privilege by providing confidential
documents outlining defendant’s defense to the government prior to trial.” Mr.
Rosenfeld alleged that, because of this improper disclosure, the government was able
to change its trial strategy in accordance with Mr. Rosenfeld’s private knowledge
and insight, “resulting in witness’ trial testimony that would have been slightly
different or never made had [trial counsel] kept the six confidential documents
private.”
Here, reasonable jurists would not debate the District Court’s denial of
Mr. Rosenfeld’s first claim. See Slack. 529 U.S. at 484, 120 S. Ct. at 1603-04. To
make a successful claim of ineffective assistance of counsel, a defendant must show
both that (l)his counsel’s performance was deficient; and (2) the deficient
performance prejudiced his defense. Strickland v. Washington. 466 U.S. 668, 687,
104 S. Ct. 2052,2064 (1984). Deficient performance “requires showing that counsel
made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed
the defendant by the Sixth Amendment.” Id at 694, 2068.
To establish prejudice, a defendant must show “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
3

4a

Case: 20-10321

Date Filed: 08/20/2020

Page: 4 of 7

would have been different.” Id. “A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Id. Failure to establish either prong is
fatal and makes it unnecessary to consider the other. Id. at 697, 2069.
A petitioner’s conclusory statements, unsupported by specific facts or by the
record, are insufficient to state a claim for ineffective assistance of counsel in a
collateral proceeding. Teiada v. Dugger. 941 F.2d 1551, 1559 (11th Cir. 1991). It
is “axiomatic that the failure to raise nonmeritorious issues does not constitute
ineffective assistance.” Bolender v. Singletary. 16F.3d 1547,1573 (11th Cir. 1994).
Assuming that Mr. Rosenfeld’s trial counsel deficiently disclosed exhibits 28,
158, 192, 462, 466, and 474 to the government, Rosenfeld has not established that
he was prejudiced by the disclosure. See Strickland. 466 U.S. at 697, 104 S. Ct. at
2069. Although Mr. Rosenfeld argued that the government was able to change its
trial strategy as a result of the disclosure, this allegation was unsupported by any
facts in Rosenfeld’s § 2255 motion or the record. In fact, the record reflects that the
government did not use the exhibits in question during Mr. Rosenfeld’s trial. Thus,
because Mr. Rosenfeld has not pointed to facts showing prejudice, no COA will
issue as to this claim. See Teiada. 941 F.2d at 1559.
2. Claim 2
In the second claim of his § 2255 motion, Mr. Rosenfeld argued that his trial
counsel was ineffective for asking him on direct examination about his involvement
4

5a

Case: 20-10321

Date Filed: 08/20/2020

Page: 5 of 7

in a Secret Service investigation of an unrelated case. Specifically, Mr. Rosenfeld
testified at trial that he assisted the Secret Service investigation of suspicious
banking instruments supplied by a company named Apogee. Mr. Rosenfeld alleged
that his counsel “violated attorney-client privilege by revealing confidential
discussions regarding defendant’s contribution to an unrelated Secret Service
investigation during defendant’s trial testimony.” Mr. Rosenfeld said that his
counsel failed to notify him that he would be asking questions about the Apogee
case. Thus, Mr. Rosenfeld argued that he was forced to testify about his contribution
to the Secret Service investigation “without the benefit of being able to research the
details of an event that occurred in 2008 and 2009.” Mr. Rosenfeld further alleged
that he was prejudiced by the questioning because his responses eventually led to a
2-level obstruction-of-justice enhancement and an increase in the loss amount for
which he was held responsible at sentencing.
Mr. Rosenfeld’s second claim is unsupported by the record. See Teiada, 941
F.2d at 1559. Although Mr. Rosenfeld claimed that his trial counsel introduced
evidence of Mr. Rosenfeld’s involvement in the Apogee case, the trial transcript
reveals that trial counsel merely asked Rosenfeld, “Have you been involved in any
deals that ultimately there was something revealed that demonstrated that the deal
was not good?” Without further prompting, Mr. Rosenfeld voluntarily responded

5

6a

Case: 20-10321

Date Filed: 08/20/2020

Page: 6 of 7

with false testimony about his involvement in the Secret Service’s investigation of
the Apogee case.
Reasonable jurists would not disagree that Mr. Rosenfeld’s counsel was not
ineffective for asking this question at trial, because the question did not require
Rosenfeld to discuss his involvement with the Apogee case. For this reason, Mr.
Rosenfeld is denied a COA as to his second claim.
3. Claims 3 and 4
In his third § 2255 claim, Mr. Rosenfeld argued that the trial court lacked
subject-matter jurisdiction over his criminal case because the two AUSAs who
signed his indictment were not validly appointed. Relatedly, in his fourth § 2255
claim, Mr. Rosenfeld argued that his trial counsel was ineffective for failing to object
to this absence of subject-matter jurisdiction. In support of these two claims, Mr.
Rosenfeld filed amended declarations and attached documents. Among those
documents were the notarized appointment affidavits of the AUSAs who signed
Mr. Rosenfeld’s indictment. Those affidavits reflect that the AUSAs were sworn
into office on May 1,1994, and August 19,2007, respectively.
Here, reasonable jurists would not debate the District Court’s denial of Mr.
Rosenfeld’s third and fourth claims. First, Mr. Rosenfeld’s claim that the AUSAs
were not validly appointed is not supported by the record. See Teiada. 941 F.2d at
1559. The appointment affidavits submitted by Mr. Rosenfeld reflect that the
6
7a

Case: 20-10321

Date Filed: 08/20/2020

Page: 7 of 7

AUSAs were sworn into their positions well before Rosenfeld was indicted,
indicating valid appointments. For this reason, reasonable jurists would not disagree
that Mr. Rosenfeld’s third claim should not succeed. He is denied a COA as to this
claim.
Finally, as to Mr. Rosenfeld’s fourth claim, reasonable jurists would not
disagree that Mr. Rosenfeld’s counsel was not ineffecti ve for failing to raise the issue
of subject-matter jurisdiction based on AUSA appointments. This issue was not
meritorious, so counsel did not offer ineffective assistance for failing to raise it. See
Bolender, 16 F.3d at 1573.
Accordingly, Mr. Rosenfeld’s motion for a COA is DENIED.

UNITED STATES CIRCUIT JUDGE

7

8a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 1 of 21 PagelD 244

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
WARREN ROSENFELD,
Petitioner,
vs.

Case No.:

3:18-CV-607-J-34JRK
3:14-cr-73-J-34JRK

UNITED STATES OF AMERICA,
Respondent.

ORDER
This case is before the Court on Petitioner Warren Rosenfeld’s Amended Motion
Under 28 U.S.C. §2255 to Vacate, Set Aside, or Correct Sentence. (Civ. Doc. 9, Amended
§ 2255 Motion).1 Rosenfeld was convicted after a jury trial of one count of conspiracy to
commit wire fraud and three counts of substantive wire fraud. Rosenfeld now raises three
claims of ineffective assistance of counsel, as well as one claim that the Court lacked
subject matter jurisdiction over the criminal proceedings. The United States has responded
in opposition (Civ. Doc. 12, Response), and Rosenfeld has filed a reply (Civ. Doc. 13,
Reply). The Court has also considered three “declarations” from Rosenfeld in support of §
2255 relief. (Civ. Doc. 3, First Declaration; Civ. Doc. 8, Amended Second Declaration; Civ.
Doc. 14, Third Declaration). Thus, the case is ripe for a decision.
Pursuant to 28 U.S.C. § 2255 and Rule 8(a) of the Rules Governing Section 2255
Proceedings2, the Court has considered the need for an evidentiary hearing and

1
Citations to the record in the underlying criminal case, United States v. Holland, et al.. No.
3:14-cr-73-J-34JRK, will be denoted “Crim. Doc._.” Citations to the record in the civil § 2255
case, No. 3:18-cv-607-J-34JRK, will be denoted “Civ. Doc._.”

9a

Case 3:18-cv-00607-MMH-JRK Document 27

Filed 01/22/20

Page 2 of 21 PagelD 245

determines that a hearing is not necessary to resolve the merits of this action. See Rosin
v. United States, 786 F.3d 873, 877 (11th Cir. 2015) (an evidentiary hearing on a § 2255
motion is not required when the petitioner asserts allegations that are affirmatively
contradicted by the record or patently frivolous, or if in assuming the facts that he alleges
are true, he still would not be entitled to any relief); Patel v. United States. 252 F. App’x
970, 975 (11th Cir. 2007).3 For the reasons set forth below, Rosenfeld’s Amended § 2255
Motion is due to be denied.
I.

Background
On April 17, 2014, a federal grand jury returned a 17-count indictment against

Rosenfeld and three codefendants: Mitchell Holland, Juan Luis Hernandez Rill, and
Rondell Scott Hedrick. (Crim. Doc. 1, Indictment). Each of the charges “related to a
longstanding wire-fraud scheme.” United States v. Holland. 722 F. App’x 919, 921 (11th
Cir. 2018). With respect to Rosenfeld, the Indictment charged him with one count of
conspiracy to commit wire fraud, in violation of 18 U.S.C. §§ 1349 and 1343 (Count One)
and three counts of substantive wire fraud, in violation of § 1343 (Counts Three, Four, and
Nine).
More particularly, the indictment alleged as follows. Beginning around
June 2009, Holland and Rosenfeld participated in a fraudulent scheme to
“lease” fake certificates of deposit (CDs) and “proof of funds” letters to
borrowers unable to obtain traditional forms of financing. Holland and
Rosenfeld convinced their clients that the leased CDs and proof-of-funds
letters could be used to obtain loans or other financing, either as collateral
2
Rule 8(a) of the Rules Governing Section 2255 Proceedings expressly requires the Court
to review the record, including any transcripts and submitted materials, to determine whether an
evidentiary hearing is warranted before resolving a § 2255 motion.
3
Although the Court does not rely on unpublished opinions as precedent, they may be cited
throughout this Order as persuasive authority on a particular point. Rule 32.1 of the Federal Rules
of Appellate Procedure expressly permits the Court to cite to unpublished opinions that have been
issued on or after January 1, 2007. Fed. R. App. P. 32.1(a).

10a

Case 3:18-cv-00607-MMH-JRK Document 27

Filed 01/22/20 Page 3 of 21 PagelD 246

or otherwise. Once an agreement was reached, Holland and Rosenfeld
obtained fraudulent financial documents from Unistate, a shell corporation
purporting to be a financial institution headquartered in New Zealand.
Each client paid an “arrangement fee” of between $150,000 and $622,500
for Holland and Rosenfeld to secure a leased financial instrument, which
would be held in the client’s name for 60 days. Theoretically, this initial
arrangement fee was to be kept in escrow for five days after provision of the
leased instrument to allow time for the client to receive a refund should the
documents prove unsatisfactory. In practice, though, Holland and Rosenfeld
never waited the full five-day period before requesting disbursement. The
arrangement fee was divided among the scheme’s participants. At the end
of the 60-day period, the client could extend the lease for up to a year by
paying another much larger fee, ostensibly with funds obtained through use
of the leased documents.141 Not a single client ever paid this second fee,
likely because none were able to use the fake documents in any way.
Holland. 722 F. App'x at 921-22 & n.1 (footnote in original but renumbered).
Rosenfeld pled not guilty to the charges and proceeded to trial. At trial, the
government presented testimony from several of the fraud victims (e.q., Crim. Doc. 379,
Trial Tr. Vol. II; Crim. Doc. 380, Trial Tr. Vol. Ill; Crim. Doc. 381 Trial Tr. Vol. IV), as well
as two co-conspirators, Glen Eliot Smith and Christopher Jaijairan, who described the
fraudulent scheme (Crim. Doc. 382, Trial Tr. Vol. V at 126-335; Crim. Doc. 383, Trial Tr.
Vol. VI at 11-203). The government also presented the testimony of an expert witness
William Kerr, Trial Tr. Vol. VI at 207-309, who explained that each of the financial

According to the indictment, Holland and Rosenfeld executed this scheme against
individual victims in the following way: Dwight Jenkins received a fraudulent $10
million “CD and Proof of Funds Account” for a $150,000 arrangement fee; George
Sayar received a $200 million “leased CD” for an initial fee of $622,500; Justin
Nemec received a $4 million “leased CD” for an initial payment of $375,000; Brian
Winum received a $100 million “leased CD” in exchange for an initial payment of
$300,000; Ronald Sapp received a $100 million “leased CD” for an initial
arrangement fee of $400,000; and Aurora Asset Management, LLC received a $100
million “leased CD” for an initial fee of $450,000. The victims were led to believe
they could monetize the leased instruments, but were unable to do so.
Holland. 722 F. App’x at 922 n.1.

11a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 4 of 21 PagelD 247

instruments that Rosenfeld and his coconspirators sold to the victims were worthless.
Additionally,
Rosenfeld testified in his own defense. During his testimony, he made
statements that became the basis of an obstruction-of-justice-based
sentence enhancement.... Among other things, during direct examination,
he claimed he had been “contacted by a Secret Service agent that was
looking for expert witnesses.” On cross-examination, the government
inquired as to the nature of Rosenfeld’s role as an expert witness. When
asked where he testified as an expert, Rosenfeld could not clearly recall, but
said he believed it was in the Eastern District of New York in Queens. When
pressed further on the matter, Rosenfeld conceded that he did not testify in
court, was not even in New York when the trial in question happened, and
claimed that he only used the term “expert” on direct because he was
answering questions about his industry in an interview with a federal
prosecutor.
At the close of the government’s case in chief, Holland and Rosenfeld each
moved for judgment of acquittal, but their motions were denied. The motions
were renewed before the case was submitted to the jury, and again denied.
Holland, 722 F. App’x at 924. After hearing nearly two weeks of testimony, the jury found
Rosenfeld guilty on all counts. (Crim. Doc. 175, Jury Verdict).
According to the Presentence Investigation Report (PSR), Rosenfeld’s total offense
level under the United States Sentencing Guidelines was 36 and his Criminal History
Category was I, yielding an advisory sentencing range of 188 to 235 months in prison.
(Crim. Doc. 211, PSR at U 98). The total offense level consisted of the following: a base
offense level of 7 under U.S.S.G. § 2B1.1(a)(1); a 20-level enhancement under §
2B1.1(b)(1)(K) because the Probation Officer determined that the loss amount was
between $7 million and $20 million ($10,523,978 to be exact); a 2-level enhancement
under § 2B1.1(b)(2)(A)(ii) because the offense involved a mass marketing scheme; a 2level enhancement under § 2B1.1(b)(10)(C) because the offense involved sophisticated
means; a 3-level enhancement under § 3B1.1(b) because Rosenfeld played a managerial

12a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 5 of 21 PagelD 248

or supervisory role in the conspiracy; and a 2-level obstruction-of-justice enhancement
under § 3C1.1 because Rosenfeld gave false testimony at trial. PSR at

59-69.

At the sentencing hearing, Rosenfeld contested the loss amount, the mass
marketing

enhancement,

the

role

enhancement,

and

the

obstruction-of-justice

enhancement, among other things. (See Crim. Doc. 392, Sentencing Tr. Vol. I; Crim. Doc.
393, Sentencing Tr. Vol. II; Crim. Doc. 458, Sentencing Tr. Vol. III). Rosenfeld was partially
successful. The Court overruled the 2-level mass marketing enhancement and the 3-level
role enhancement. (Crim. Doc. 237, Statement Regarding Guidelines Determination). The
Court also determined that the loss amount attributable to Rosenfeld was approximately
$3.8 million rather than $10.5 million, resulting in an 18-level enhancement instead of a
20-level enhancement. Id.; (see also Crim. Doc. 238, Restitution Amount Finding). But
Rosenfeld was less successful in challenging the obstruction-of-justice enhancement.
Among other enhancements, Rosenfeld’s presentence investigation report
added a two-level increase for obstruction of justice based on Rosenfeld’s
misleading trial testimony that he had served as an expert for the
government. Rosenfeld asserted that his testimony was made in good faith,
arguing that he never used the word “testify” on direct examination and had
only answered the government’s questions on cross. The government
argued that Rosenfeld deliberately attempted to deceive the jury into
believing he had testified as an expert witness for the government, and the
district court agreed.
Holland. 722 F. App’x at 924-25. Thus, this Court determined that the correct total offense
level for Rosenfeld was 29 and the Criminal History Category was I, resulting in an advisory
sentencing range of 87 to 108 months in prison. Sentencing Tr. Vol. II at 10; see also
Sentencing Tr. Vol. Ill at 4-5. Ultimately, the Court varied below the guidelines range and
sentenced Rosenfeld to concurrent terms of 60 months in prison on each count, followed

13a

Case 3:18-CV-00607-MMH-JRK Document 27 Filed 01/22/20 Page 6 of 21 PagelD 249

by a 3-year term of supervised release. Sentencing Tr. Vol. Ill at 47, 48; (Crim. Doc. 446,
Judgment).
Rosenfeld appealed his conviction and sentence to the Eleventh Circuit Court of
Appeals. Rosenfeld raised seven arguments: (1) that the Court abused its discretion by
admitting evidence of uncharged fraudulent transactions; (2) that the Court abused its
discretion by allowing the government’s expert witness to testify; (3) that the Court abused
its discretion “by refusing to allow their ‘key’ witness to testify as either an expert or lay
witness”; (4) that the Court improperly calculated the forfeiture amount; (5) that the Court
“erred by not limiting the government’s interest in his home to the mortgage payment
shown to be tainted by the proceeds of the fraud”; (6) that the imposition of both a money
judgment and the forfeiture of his home violated the Eighth Amendment’s Excessive Fines
Clause; and (7) that the Court erred in imposing the obstruction-of-justice enhancement.
Holland. 722 F. App’x at 925. The Eleventh Circuit rejected each of these arguments,
affirming his conviction and sentence, jd. at 926-31.
Rosenfeld did not petition the United States Supreme Court for a writ of certiorari
at which point his conviction and sentence became final. Rosenfeld then timely initiated
these § 2255 proceedings. Rosenfeld raises three claims of ineffective assistance of
counsel against his attorney, Mitchell A. Stone, based on decisions counsel made before
or during trial, and one claim that the Court lacked subject matter jurisdiction over the
criminal proceedings.
II.

Discussion
Pursuant to Title 28, United States Code, Section 2255, a person in federal custody

may move to vacate, set aside, or correct his sentence. Section 2255 permits such

14a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 7 of 21 PagelD 250

collateral challenges on four specific grounds: (1) the imposed sentence was in violation
of the Constitution or laws of the United States; (2) the court did not have jurisdiction to
impose the sentence; (3) the imposed sentence exceeded the maximum authorized by
law; or (4) the imposed sentence is otherwise subject to collateral attack. 28 U.S.C
§2255(a) (2008). Only jurisdictional claims, constitutional claims, and claims of error that
are so fundamentally defective as to cause a complete miscarriage of justice will warrant
relief through collateral attack. United States v. Addonizio. 442 U.S. 178, 184-86 (1979).
A petitioner’s challenge to his sentence based on a Sixth Amendment claim of ineffective
assistance of counsel is normally considered on collateral review. United States v. Teague.
953 F.2d 1525, 1534 n.11 (11th Cir. 1992).
As with any Sixth Amendment ineffective assistance of counsel claim, a § 2255
petitioner must demonstrate both: (1) that his counsel’s conduct amounted to
constitutionally deficient performance, and (2) that his counsel’s deficient performance
sufficiently prejudiced his defense. Strickland v. Washington. 466 U.S. 668, 687 (1984);
Weeks v. Jones, 26 F.3d 1030,1036 (11th Cir. 1994). In determining whether the petitioner
has satisfied the first requirement, i.e. that counsel performed deficiently, the Court
adheres to the standard of reasonably effective assistance. Weeks. 26 F.3d at 1036. The
petitioner must show, in light of all the circumstances, that counsel’s performance fell
outside the “wide range of professionally competent assistance.” ]d. To satisfy the second
requirement, that counsel’s deficient performance prejudiced the defendant, the petitioner
must show that there is a reasonable probability that, but for counsel’s error, the result of
the proceeding would have been different. ]d. at 1036-37 (citing Strickland. 466 U.S. at
694). In determining whether a petitioner has met the two prongs of deficient performance

15a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 8 of 21 Page ID 251

and prejudice, the Court considers the totality of the evidence. Strickland, 466 U.S. at 695.
However, because both prongs are necessary, “there is no reason for a court... to
approach the inquiry in the same order or even to address both components of the inquiry
if the defendant makes an insufficient showing on one.” Id at 697; see also Wellington v.
Moore, 314 F.3d 1256, 1261 n. 1 (11th Cir. 2002) (“We need not discuss the performance
deficiency component of [petitioner’s] ineffective assistance claim because failure to
satisfy the prejudice component is dispositive.”).
A. Ground One: Counsel’s disclosure of documents before trial
In Ground One, Rosenfeld alleges that counsel gave ineffective assistance by
disclosing “confidential” documents to the government before trial. Amended § 2255
Motion at 4, 13-15. Specifically, Rosenfeld claims that counsel “violated attorney-client
privilege by providing confidential documents outlining defendant’s defense to the
government prior to trial and by revealing confidential discussions regarding defendant’s
contributions to an unrelated Secret Service investigation during defendant’s trial
testimony.” jd. at 13.5 In his Third Declaration, Rosenfeld identifies six documents that he
claims were confidential, and which counsel disclosed to the United States: (1) a document
named “Mischaracterization of the Unistate CD as an Investment Vehicle,” (2) a document
named “FINRA Registrations & Licenses are not required for Holland & Rosenfeld,” (3) a
document named “DTC[6] Issues resolved - Details,” (4) a document named “Review of

5
Counsel’s alleged ineffectiveness for disclosing Rosenfeld’s involvement in a Secret
Service investigation, which led to the obstruction-of-justice enhancement and the discovery of
additional fraudulent transactions, is addressed in Ground Two.
6
DTC stands for Depository Trust Company, which is a highly-regulated private company
that operates as a clearinghouse for international transactions.

16a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 9 of 21 PagelD 252

Unistate Agreement,” (5) a document named “CUSIP[7l Allegation Issues Resolved,” and
(6) a document named “Summary of Fraudulent $200 M CD to Sayar.” Third Declaration
atU 3. Each document is attached to the Third Declaration. (Civ. Doc. 14-1, Attachments).
These documents were included in Rosenfeld’s exhibit list, along with 688 other exhibits
as exhibit numbers 474, 462, 158, 466, 192, and 28, respectively. (Crim. Doc. 173
Rosenfeld’s Exhibit List). The first five documents contain Rosenfeld’s impressions
interpretations of the evidence, or summaries of events. The sixth document - the
“Summary of Fraudulent $200 M CD to Sayar” - was not produced by Rosenfeld at all but
one of the victims himself, George Sayar. None of the six documents were admitted into
evidence at trial. See id.
Rosenfeld asserts that counsel’s disclosure of the documents to the government
prejudiced him by “preventing] defendant from presenting a cognizable defense strategy”
and “allowing new testimony and evidence to be introduced by the government that vitiated
defendant’s trial testimony and compromised defendant’s credibility with the jury....”
Amended § 2255 Motion at 13. Rosenfeld contends that counsel’s actions “allow[ed] the
government to craft the prosecution of their case in chief with foreknowledge of defendant’s
private knowledge and insight into the underlying issues of the case, resulting in witness’
[sic] trial testimony that would have been slightly different or never made had Stone kept
the six (6) confidential documents private.” Id. at 14. However, Rosenfeld can only
speculate that the documents’ disclosure affected the government’s strategy. Rosenfeld

7
CUSIP stands for Committee on Uniform Securities Identification Procedures. Each
registered security has a unique CUSIP number. Part of the evidence that the financial instruments
in this case were fraudulent was that the instruments had false or invalid CUSIP numbers. (Crim.
Doc. 381, Trial Tr. Vol. IV at 272-74); accord Indictment at 5, 9-10, 19.

17a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 10 of 21 PagelD 253

does not identify any evidence of a causal relationship between the disclosure of these
documents and the government’s trial strategy.
The United States responds that “Rosenfeld’s precise claims are general and
somewhat difficult to parse, but seem to focus on documents that defense counsel
provided to the government immediately before and during trial....” Response at 8. The
United States argues that “[t]he record does not support Rosenfeld’s claims.” ]cL at 4.
According to the United States,
Defense counsel did not provide reciprocal discovery and provided large
binders of exhibits to the government for the first time at the trial. The
government objected. The late provided discovery was not excluded from
evidence. The late disclosure of discovery and exhibits continued throughout
the trial, thus putting the government at a disadvantage.
IcL at 8 (emphasis added). (Accord, e.q.. Crim. Doc. 382, Trial Tr. Vol. V at 201-02)
(Prosecutor: “Mr. Shorstein - first of all, 600 exhibits. I have not received one from Mr.
Stone. He promised them at 9:00 a.m. today. I don’t have one, not one.”). Thus, the United
States argues that counsel’s tactic of deluging the government with last-minute discovery
disadvantaged the prosecution, not the other way around.
The Court will assume, for the sake of discussion only, that counsel erred by
disclosing the six documents to the prosecution. Nevertheless, Rosenfeld has failed to
show that he was prejudiced under Strickland because there is not a reasonable likelihood
that the last-minute disclosures affected the outcome of the trial. Notably, none of the six
documents that Rosenfeld complains about were ultimately admitted into evidence. See
Rosenfeld’s Exhibit List, Exhibit Nos. 28, 158, 192, 462, 466, 474. Moreover, Rosenfeld
does not point to any example where disclosure of the six documents actually caused the
government to adopt new arguments, or to introduce new or different testimony, compared

18a

Case 3:18-cv-00607-MMH-JRK Document 27

Filed 01/22/20

Page 11 of 21 PagelD 254

to its original strategy. Instead, Rosenfeld presents only his self-serving speculation. 8
Based on the record, it is doubtful the government even had a meaningful opportunity to
review any of the six documents in detail. These documents were merely six files scattered
throughout Rosenfeld’s list of 694 exhibits, and Rosenfeld inundated the government with
discovery at the last minute. Thus, it is implausible that the government reshaped its trial
strategy based on the eleventh-hour disclosure of these six documents, buried as they
were among 688 other exhibits.
Additionally, the evidence that the government introduced at trial mirrored the
allegations in the Indictment and what the government said it would prove in its pretrial
memorandum (Crim. Doc. 132, United States’ Trial Brief Concerning Rule 404(b)
Evidence). This reinforces the conclusion that the late disclosures did not influence the
government’s strategy. At trial
The Government presented evidence that Defendants Holland and
Rosenfeld worked together over a period of more than two years defrauding
business people in severe financial difficulty. They did so by purporting to
facilitate arrangements whereby the victims could “rent” financial
instruments, which supposedly would enable the victims to obtain financing
based upon their apparent ownership of the instruments. Moreover, the
Government presented evidence adequate to prove that the instruments
were not real. However, even if the instruments had been genuine, the
“rental” agreements were specious. Not one of the transactions pertinent to
the instant case resulted in the customer’s obtaining the financing sought.
Furthermore, the only way that a victim could have succeeded in finding
some source of financing to provide funds based on such a leased
instrument would have been to mislead the source into believing that the
8
In his Reply brief, Rosenfeld attempts to identify examples of how he believes the
disclosure of the documents affected the government’s strategy. Reply at 4-6. But several of the
examples allege that the documents’ disclosure caused the government to not prosecute certain
allegations in the Indictment, id, which could not have prejudiced Rosenfeld. The other example
relates to technical details about the fake CUSIP numbers on the instruments, id at 5, which likely
did not affect the Outcome of the trial given the totality of two weeks’ worth of testimony.
Additionally, the government had maintained since the Indictment that the fraudulent financial
instruments bore fake CUSIP numbers, see Indictment at 5, 9-10, 19, and the record does not
support the notion that the disclosures affected the government’s case in this regard.

19a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 12 of 21 PagelD 255

“rented” instrument provided some genuine security. In sum, using the
analogy presented by Rosenfeld’s counsel in his opening statement, the
“deal” was equivalent to renting an expensive car for an evening to attend
one’s high school reunion and appear prosperous so as to facilitate obtaining
loans from former classmates.
The evidence was adequate to enable a reasonable jury to find that
Defendants Holland and Rosenfeld knew that the “rented instrument
scheme” was utterly baseless. Indeed, Defendants Holland and Rosenfeld,
who supposedly were entitled to millions of dollars in the event that a victim
actually obtained the financing sought, once they obtained their profits for
arranging the “rental,” had little or no interest in the victim’s efforts to obtain
the financing. In sharp contrast, the evidence established that co-Defendant
Hedrick actually believed (albeit unreasonably) that the leased instruments
procured by Defendants Holland and Rosenfeld could be “monetized,” and
he engaged in extensive - albeit fruitless - efforts to obtain funding for the
victims. The jury, quite justifiably, found Hedrick not guilty of the conspiracy
charge while convicting Defendants Holland and Rosenfeld.
(Crim. Doc. 207, Order Denying Rosenfeld’s Motion for Judgment of Acquittal at 2-4). This
evidence aligns with what the United States said it would prove well before the six
documents were disclosed. Compare Indictment; United States’ Trial Brief Concerning
Rule 404(b) Evidence.
Rosenfeld’s claim that counsel’s disclosure of the six documents “prevented [him]
from presenting a cognizable defense strategy,” or that it influenced the government’s trial
strategy, is speculative and unfounded. And speculative allegations are not enough to
warrant an evidentiary hearing, let alone habeas relief. Tejada v. Dugger. 941 F.2d 1551,
1559 (11th Cir. 1991). The record further shows that there is not a reasonable probability
that counsel’s disclosure of the six documents affected the outcome of the trial.9 As such
Rosenfeld’s claim of ineffective assistance in Ground One is due to be denied.

9
Rosenfeld also suggests that counsel’s disclosure of the six documents was ineffective per
se, such that the Court must presume prejudice under United States v. Cronic. 466 U.S. 648
(1984). Amended § 2255 Motion at 13; Reply at 11-14. This argument merits little discussion. The
category of ineffective assistance claims where prejudice is presumed is narrow. See Purvis v.
Crosby. 451 F.3d 734, 740 (11th Cir. 2006) (“The Supreme Court in Strickland instructed us that

20a

Case 3:18-cv-00607-MMH-JRK Document 27

Filed 01/22/20 Page 13 of 21 PagelD 256

B. Ground Two: Counsel’s questioning of Rosenfeld about his involvement
in a Secret Service investigation
In Ground Two, Rosenfeld alleges that counsel gave ineffective assistance by
asking Rosenfeld on direct examination about his involvement in a prior Secret Service
investigation. Amended § 2255 Motion at 5, 16-18. Specifically, Rosenfeld claims that
counsel “violated attorney-client privilege by revealing confidential discussions regarding
defendant’s contribution to an unrelated Secret Service investigation during defendant’s
trial testimony.” Id. at 16. Rosenfeld gave false testimony about his role in the Secret
Service investigation, leading to an obstruction-of-justice guidelines enhancement and the
discovery of three additional, uncharged fraudulent transactions, one of which was added
to the loss amount.
On direct examination, Rosenfeld stated that in late 2008 he was “contacted by a
Secret Service agent that was looking for expert witnesses.” (Crim. Doc. 163, Rosenfeld
Testimony Excerpt at 5). The United States objected because this matter had not been
disclosed before trial. ]d. The Court allowed Rosenfeld to testify about the matter, and
Rosenfeld went on to state that he had a brief acquaintance with a Secret Service agent
named Mike Purcell. Id. at 6-7. According to Rosenfeld, he used his business knowledge
to assist Agent Purcell in investigating suspicious banking instruments supplied by a
company named Apogee, kl Rosenfeld also testified that he assisted Agent Purcell in
canceling a “proof-of-funds” transaction involving Apogee, and in doing so obtained a

in all but three exceptional circumstances prejudice must be shown before an ineffective
assistance of counsel claim merits relief.”). Prejudice is presumed only where (1) the defendant
has been actually or constructively denied the assistance of counsel at a critical stage, (2) where
the state has interfered with the assistance of counsel, or (3) where counsel “is burdened by
conflicting interests arising from multiple representation” that affect counsel’s performance, jd at
740-41. Rosenfeld’s counsel capably represented him through two weeks of trial and sentencing.
Rosenfeld’s allegations fall far short of establishing per se ineffective assistance.

21a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 14 of 21 PagelD 257

refund for a customer. Id. at 7-8. On cross-examination, Rosenfeld further testified that law
enforcement had approached him to serve as an expert witness in the Apogee case, and
that he testified as a “material witness” in a federal court in Queens, New York. Id. at 10.
But
[w]hen pressed further on the matter, Rosenfeld conceded that he did not
testify in court, was not even in New York when the trial in question
happened, and claimed that he only used the term “expert” on direct because
he was answering questions about his industry in an interview with a federal
prosecutor.
Holland. 722 F. App’x at 924.
The government located Agent Purcell over the intervening weekend and called him
as a rebuttal witness when the trial resumed. (See Crim. Doc. 387, Trial Tr. Vol. X at 1949). Agent Purcell testified that he contacted Rosenfeld in late 2008 as a person of interest
in an investigation about suspicious banking activities, not as an expert witness. Id. at 1929. Agent Purcell’s testimony further revealed that Rosenfeld had been involved in three
additional uncharged fraudulent transactions pertaining to Apogee. See id at 28-31. The
three transactions involved worthless proof-of-funds letters, with the victims being
identified as Gary Snisky, Dimarco Holdings, and Paloma Partners. ]d; see also Gov’t Exs.
46A, 47A, 48A. Of those three transactions, the one involving Gary Snisky was added to
the calculation of the loss amount, raising the figure by $247,000, or from $3,565,077 to
$3,812,077. See Restitution Amount Finding (Crim. Doc. 238).
Rosenfeld faults counsel for the ensuing obstruction-of-justice enhancement and
increase in the loss amount. Rosenfeld claims he and his attorney had agreed during
pretrial discussions that counsel would not ask him about his involvement in the Apogee
case. Amended § 2255 Motion at 16; First Declaration at

22a

3. Rosenfeld asserts that

Case 3:18-CV-00607-MMH-JRK Document 27

Filed 01/22/20 Page 15 of 21 PagelD 258

counsel failed to notify or prepare him that he would be asking such questions, “forcing”
him to testify about his “contribution” to the Secret Service investigation “without the benefit
of being able to research the details of an event that occurred in 2008 and 2009.” Amended
§ 2255 Motion at 17. Rosenfeld claims he was prejudiced because the line of questioning
led to the 2-level obstruction-of-justice enhancement, the discovery of three additional
uncharged fraudulent transactions, and an increase in the loss amount.10 In short,
Rosenfeld blames counsel for the consequences of his false testimony.
The trial record refutes Rosenfeld’s claim. Contrary to his allegations, the record
shows that Rosenfeld readily testified about his purported role in the Apogee investigation.
As the United States observes, counsel asked Rosenfeld an “open-ended question” and
Rosenfeld himself supplied the false answers. Response at 9. The following exchange
occurred between defense counsel and Rosenfeld:
STONE:

Okay. Let me ask you a question concerning your
business practice in the - in this area.
Have you been in - have you been involved in any deals
that ultimately there was something revealed that
demonstrated that the deal was not good?

ROSENFELD:

Yes.

STONE:

Okay. Can you tell us about an example of that?

ROSENFELD:

Yeah. In approximately - I’d have to look for the exact
dates - late 2008, perhaps December, but late 2008, I
was contacted by a Secret Service agent that was
looking for expert witnesses in the area that I was -

10

With regard to the loss amount, Rosenfeld incorrectly claims that his testimony led to the
discovery of both the $247,000 transaction involving Gary Snisky and a $664,577 fraudulent
transaction involving a company called Promotora Inmobilaria. Amended § 2255 Motion at 18. In
truth, only the $247,000 Gary Snisky transaction was added to the loss amount as a result of
Rosenfeld’s testimony. The government was already aware of the Promotora Inmobiliaria
transaction, as reflected by that transaction’s inclusion in the United States’ pretrial memorandum.
United States’ Trial Brief Concerning Rule 404(b) Evidence at 5, If 7 (Crim. Doc. 132).

23a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 16 of 21 PagelD 259

DUVA:

Objection. May we approach, Your Honor?

COURT:

Yes, of course.
***

STONE:

So were you - did you receive contact about
something?

ROSENFELD:

Yes.

STONE:

And what was that?

ROSENFELD:

They were trying to find people in the industry who had
some knowledge that could explain how the business
worked.

Rosenfeld Testimony Excerpt at 5-6. Rosenfeld went on to describe his interactions with
Agent Purcell, how he allegedly used his expertise to assist Agent Purcell with the Apogee
investigation, and how Rosenfeld testified as an expert or a “material witness” at a federal
trial in Queens, New York (which turned out to be false), jd. at 6-11.
Far from being unwilling and unprepared to present this testimony, the record
demonstrates that Rosenfeld provided the false testimony of his own accord. Defense
counsel’s initial questions did not suggest the answer and certainly did not compel
Rosenfeld to testify falsely as he did. Rather, without hesitation, Rosenfeld himself offered
the false statements.
Indeed, it appears that Rosenfeld’s testimony about being a purported expert was
designed to convince the jury of his legitimacy in the financial world. Similar to a decision
on which witnesses to call, the decision on what testimony to elicit from a witness is a
guintessentiallv strategic one. See Evans v. Sec'v. Fla. Dep'tof Corr.. 699 F.3d 1249,1268
(11th Cir. 2012) (“Which witnesses, if any, to call, and when to call them, is the epitome of
a strategic decision, and it is one that we will seldom, if ever, second guess.”). The

24a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 17 of 21 PagelD 260

transcript shows that Rosenfeld was a willing participant in the strategy to portray himself
as a person knowledgeable in the business of unconventional financing.11 As the
government concedes, “[t]his tactic could have even worked in Rosenfeld’s favor had the
government been unable to locate and call Agent Purcell to the witness stand.” Response
at 12. But the government was able to track down Agent Purcell and the strategy backfired
on Rosenfeld. That the strategy ultimately failed, however, does not establish that counsel
gave ineffective assistance. Strickland. 466 U.S. at 689 (“Judicial scrutiny of counsel's
performance must be highly deferential” because “it is all too easy for a court, examining
counsel's defense after it has proved unsuccessful, to conclude that a particular act or
omission of counsel was unreasonable.”). The Court is “not permitted to use the benefit of
hindsight to conclude that [counsel] should have known his ... strategy would be
unsuccessful.” Dingle v. Sec’v. Dep’t of Corr.. 480 F.3d 1092, 1100 (11th Cir. 2007).
Simply put, Rosenfeld himself chose to provide false testimony. Counsel did not
force Rosenfeld to provide false answers to open-ended questions. The testimony was a
tactical gambit that eventually backfired, but Rosenfeld cannot escape the consequences
of his own actions by shifting the blame to his attorney. Because the trial record
affirmatively contradicts Rosenfeld’s allegations, relief as to the claim in Ground Two is
due to be denied.

Rosenfeld does not allege that defense counsel knew his testimony about his role in the
Apogee case was false. Nor does he claim that counsel failed to explain the consequences of
committing perjury. Rather, the essence of Rosenfeld’s claim is simply that he and defense counsel
had agreed they would not introduce testimony about Rosenfeld’s involvement in the Apogee
investigation and that Rosenfeld was unprepared to give such testimony. As explained above,
however, the record refutes this claim.
11

25a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 18 of 21 PagelD 261

C. Grounds Three and Four: Whether the Court lacked subject matter
jurisdiction and whether counsel was ineffective for not raising the
objection
In Ground Three, Rosenfeld claims that the Court lacked subject matter jurisdiction
over the criminal case because the Assistant United States Attorneys (AUSA’s) who
signed the Indictment, A. Tysen Duva and Karen Gable, were not validly appointed
AUSA’s. Amended § 2255 Motion at 7, 19-20. In Ground Four, Rosenfeld claims that
counsel was ineffective because he failed to object to the alleged absence of jurisdiction.
Id at 8, 21-22.
This claim is frivolous. Mr. Duva and Ms. Gable are duly-appointed AUSA’s, as
reflected by the appointment affidavits contained in the record. Mr. Duva’s appointment
affidavit shows that he was sworn into office on August 19, 2007. First Declaration at 15.
Ms. Gable’s appointment affidavit shows that she was sworn into office on May 1, 1994.
Amended Second Declaration at 6. Neither affidavit suggests that Mr. Duva’s or Ms.
Gable’s appointments as AUSA’s expired at a certain date thereafter.
In any event, the Court’s subject matter jurisdiction existed independently of Mr.
Duva’s or Ms. Gable’s appointments. “So long as the indictment charges the defendant
with violating a valid federal statute as enacted in the United States Code, it alleges an
‘offense against the laws of the United States’ and, thereby, invokes the district court's
subject-matter jurisdiction” under 18 U.S.C. § 3231. United States v. Brown, 752 F.3d
1344, 1354 (11th Cir. 2014) (citing Alikhani v. United States. 200 F.3d 732, 734-35 (11th
Cir. 2000)). Here, the Indictment charged Rosenfeld with conspiracy to commit wire fraud
and substantive wire fraud, in violation of 18 U.S.C. §§ 1343, 1349, and 2 - each one a
criminal statute in the United States Code. By doing so, the Indictment did all that was

26a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 19 of 21 PagelD 262

necessary to give the Court subject matter jurisdiction over the offenses for which
Rosenfeld was convicted. Brown. 752 F.3d at 1354. Even if the indictment had not been
“be[en] signed by an attorney for the government,” as required by Fed. R. Crim. P. 7(c)(1)
such a defect would have been a technical one, which would not have deprived the Court
of subject matter jurisdiction. See United States v. Duval, 604 F. App’x 910, 910 (11th Cir.
2015) (“The purported absence of the foreperson's signature was ‘a mere technical
irregularity,’ Hobby v. United States. 468 U.S. 339, 345, 104 S. Ct. 3093, 3096, 82 L. Ed.
2d 260 (1984), that did not affect the authority of the district court to enter its judgment.”)
(citing United States v. Cotton. 535 U.S. 625, 630 (2002)). Thus, Rosenfeld’s argument
that the Court lacked subject matter jurisdiction lacks merit in law and fact.
Likewise, defense counsel did not render ineffective assistance by not objecting to
the absence of subject matter jurisdiction because such an argument would have been
frivolous. See Chandler v. Moore, 240 F.3d 907, 917 (11th Cir. 2001) (attorney did not
render ineffective assistance by deciding not to raise a meritless issue). Therefore,
Rosenfeld’s claims in Grounds Three and Four are due to be denied.
III.

Certificate of Appealability Pursuant to 28 U.S.C. § 2253(c)(1)
If Rosenfeld seeks issuance of a certificate of appealability, the undersigned opines

that a certificate of appealability is not warranted. This Court should issue a certificate of
appealability only if the petitioner makes "a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2). To make this substantial showing, Rosenfeld
"must demonstrate that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong," Tennard v. Dretke. 542 U.S. 274, 282 (2004)
(quoting Slack v. McDaniel. 529 U.S. 473, 484 (2000)), or that "the issues presented were

27a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 20 of 21 PagelD 263

'adequate to deserve encouragement to proceed further,'" Miller-El v. Cockrell. 537 U.S.
322, 335-36 (2003) (quoting Barefoot v. Estelle. 463 U.S. 880, 893 n.4 (1983)).
Where a district court has rejected a petitioner's constitutional claims on the merits,
the petitioner must demonstrate that reasonable jurists would find the district court's
assessment of the constitutional claims debatable or wrong. See Slack. 529 U.S. at 484.
However, when the district court has rejected a claim on procedural grounds, the petitioner
must show that "jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling." ]cl Upon consideration of
the record as a whole, this Court will deny a certificate of appealability.
As such, and in accordance with the Rules Governing Section 2255 Cases in the
United States District Courts, it is hereby
ORDERED:

1. Petitioner Warren Rosenfeld’s Amended Motion Under 28 U.S.C. § 2255 to Vacate,
Set Aside, or Correct Sentence (Civ. Doc. 9) is DENIED.
2. The Clerk shall enter judgment in favor of the United States and against Warren
Rosenfeld, and close the file.
3. If Rosenfeld appeals the denial of the petition, the Court denies a certificate of
appealability. Because this Court has determined that a certificate of appealability
is not warranted, the Clerk shall terminate from the pending motions report any
motion to proceed on appeal as a pauper that may be filed in this case. Such

28a

Case 3:18-cv-00607-MMH-JRK Document 27 Filed 01/22/20 Page 21 of 21 PagelD 264

termination shall serve as a denial of the motion.
DONE AND ORDERED at Jacksonville, Florida this 22nd day of January, 2020.

United States District Judge

Ic 19
Copies:
Counsel of Record
Pro se petitioner

29a

Case 3:14-cr-00073-TJC-JRK Document 1 Filed 04/17/14 Page 31 of 32 PagelD 31

the United States of America shall be entitled to forfeiture of substitute property
pursuant to Title 21, United States Code, Section 853(p), as incorporated by Title
28, United States Code, Section 2461(c).

A TRUE BILL,
eperson

A. LEE BENTLEY, III
United States Attorney

By:
A. TYSEN DUK/AX
Assistant United States Attorney
By:

OB V

KAREN L. GABLE
Assistant United States Attorney
Chief, Criminal Division (North)

31

30a

To: U.S. Attorney's Office - FOIA Division
Federal Courthouse
300 N. Hogan St., Suite 700
Jacksonville, FL 32202
From: Warren Rosenfeld 60757-018

Seagoville Federal Prison Camp
P.0. Box 9000
Seagoville, TX 75159-9000
Dear Freedom of Information Act Officer:
This is my Freedom of Information Act ("FOIA") request under 5 U.S.C. §§
552 and 552(a), and my agreement to pay costs associated herewith in obtaining
all records, all documents, and all information pertaining to the actual
appointment to the office of Assistant U.S. Attorney__________________________
under Article II, § 2, Cl.2 and
28 U.S.C. Section 542(a)
The most likely name of the office is Assistant United SfatPs Ati-m-r^y
The name of the person to which this FOIA request pertains to is
A. Tysen Duva
The time period of the search is from
April 1, 2017;.

January 20, 2009

to

To help you locate these records I can provide that the person exercised
the .authority of the office of Assistant U.S. Attorney
in the Middle
District of Florida, Jacksonville Division.
This request includes any oath affidavits the above named person signed
under 28 U.S.C. § 544.

June 23, 1954
My date of Birth is
I declare under the penalty of perjury pursuant to 28 U.S.C. § 1746(1),
under the laws of the United States of America, that the foregoing is true
and correct to the best of my knowledge and beliefs “v.
i H

DECLARATION OF MAILING
I declare under the penalty of perjury pursuant to 28 U.S.C. § 1746(1),
under the laws of the United States of America, that on
April 6, 2017
2016, I deposited the above FOIA request in the U.S. Mailbox located inside
jto the address
Seagoville Federal Prison Camp
listed above.

Declarant
1 of 1

31a

1

To: U.S. Attorney's Office - FOIA Division
Federal Courthouse
300 N. Hogan St., Suite 700
Jacksonville, FL 32202
From: Warren Rosenfeld 60757-018
Seagoville Federal Prison Camp
P.0. Box 9000
Seagoville, TX 75159-9000
Dear Freedom of Information Act Officer:
This is my Freedom of Information Act ("FOIA") request under 5 U.S.C. §§
552 and 552(a), and my agreement to pay costs associated herewith in obtaining
all records, all documents, and all information pertaining t.o the actual
appointment to the office of __ Assistant U.S. Attorney
under Article II, § 2, Cl.2 and
28 U.S.C. Section 542(a)
The most likely name of the office is Assistant United States Attorney ■
The name of the person to which this FOIA request pertains to is

Karen L. Gable
The time period of the search is from

January 20, 2009

to

April 1. 2017
To help you locate these records I can provide that the person exercised
the authority of the office of Assistant U.S. Attorney in the Middle_______

District of Florida. Jacksonville Division.
This request includes any oath affidavits the above named person signed
under 28 U.S.C. § 544.
My date of Birth is
June 23, 1954
I declare under the penalty of perjury pursuant to 28 U.S.C. § 1746(1),
under the laws of the United States of America, that_ the foregoing is true
lief
and correct to the best of my knowledge and

c

"k

w

DECLARATION OF MAILING
I declare under the penalty of perjury pursuant to 28 U.S.C. § 1746(1),
under the laws of the United States of America, that on'
April 6. 2017
2016, I deposited the above FOIA request in the U.S. Mailbox located inside
to the address
Seagoville Federal Prison Camp
listed above.

1 of 1

32a

•*

i ■;

v *V,

APPOINTMENT AFFIDAVITS
Assistant United States Attorney

08/19/2007

(Position to which Appointed)

(Date Appointed)

Department of Justice

U.S. Attorney's Office

Jacksonville, Florida •

(Department or Agency)

(Bureau or Division)

(Place of employment)

I. Andrew T. Duva

„ do solemnly swear (or affirm) that—

A. OATH OF OFFICE
I will support and defend the Constitution of the United States against all enemies, foreign and domestic;
that I will bear true faith and allegiance to the same; that Itake this obligation freely, without any mental
reservation or purpose of evasion; and that I will well and faithfutly discharge the duties of the office on which
I am about to enter. So help me God.

B. AFFIDAVIT AS TO STRIKING AGAINST THE FEDERAL GOVERNMENT
I am not participating in any strike against the Government of the United States or any agency thereof,
and I will not'so participate while an employee of the'Govemment.of the United States or any agency
. thereof.

C. AFFIDAVIT AS TO THE PURCHASE AND SALE OF OFFICE
I have not, nor has anyone acting in my behalf, given, transferred, promised or paid any consideration
for or in expectation or hope of receiving assistance in securing this appointment.

(b)(6)
(SlgnaJur€of Appointee)

Subscribed and sworn (or affirmed) before me this~VO^dav of
Florida

at Jacksonville

(State)

(City)
Michael 3. Brown
/.? A-.h MYCOMWJSStON/
EXFflES
■if*
November 13,2005
torero two TKW {Ui vsuukl nc

m

Branch Office Manager

Commission expires_________

(It by a Notary Public, the date of his/her Commission should be shown)

.(TlUeJ

Note -1( the appointee objects to the form of the oath on religious grounds, certain modifications may be permitted pursuant to the
Religious Freedom Restoration Act. Please contact your agency’s legal counsel for advice.

U.S. Office of Personnel Management
The Guido to Processing Personnel Actions

NSN 7540-00-634*4015

33a

Standard Form 61
Revised August 2002
Previous editions not usable

1

(MM AWKMUi NO. SO-flOIII

WO

MISSION

APPOINTMENT AFFIDAVITS
May 1, 1994

’ Assistant United States Attorney
{Petition fo which appointed)

(Data of appointment)

Department of Justice - Middle District of Florida - Orlando. Florida
(Department or ayeaey)

(Bureau or dMtlon)

Karen T.. flahle

I,

(Plaee of employment)

do solemnly swear (or affirm) that—

A. OATH OP OFFICE
I wilt support and defend the Constitution of the United States against nil enemies, foreign and
domestic; that I will bear true faith and allegiance to the same; that-1 take this obligation freely,
without any mental reservation or purpose of evasion; and thnt I will well and faithfully discharge
the duties of the office on which I am about to enter. So help me God.

B. AFFIDAVIT AS TO STRIKING AGAINST THE FEDERAL GOVERNMENT
I am not participating in any strike against the Government of the United States or any agency
thereof, ar\d I will not so participate while an employee of the Government- of the United States or
any agency thereof.

C AFFIDAVIT AS TO PURCHASE AND SALE OF OFFICE
I have not, nor has anyone acting in my'behalf, givon, transferred, promised or paid any con­
sideration for or in expectation or hope of receiving assistance in securing this appointment,.

/ (Sienatara of appeuatwj

Subscribed and sworn (or affirmed) before me this
Orlando

rT77T!7

2nd

day of

A.D. 10 g±. ,

Florida
(State)

(CUP)

W —

- a.. ,

i£i 2

May

#

,

■l ;0taiaiii6»ida fsxptr^n.______________
V. < iter a Nptcrr PaMIc, the Cate of expiration
* •>«* tilstiemnisfctoa afcoutd be shown)

-S’

jstr■—
* “
‘
w MV COMMISSION # CC 20tW EXPO®
Af
.
Jura 7,1BM-.. ■ --------

mm

MOTfci-Vbs eelk of office matt be admlnUieretl by a ptreon tpecified In S U.8.C. tt09. The wordt -So help me Goit"
in the oath and the went "neear" wherever it appears nftava «ho*M be etrieke* out teken the appointee electt
to affirm rather (has swear to tho affidavit*: only these wordt way be etrioken and onip when the uppotntre
cleote to affirm tho affidovtte.
oo.s.

amesiissa- m-Minii

(£3 ,*nc~c3lwsbstuUn/JffiRrt«g»«m?f»er^

USAjOBS

♦3 Sign In

G Help

O, Search

Assistant United States Attorney
DEPARTMENT OF JUSTICE

Southern District of Indiana

Overview

Locations

Duties.

£*pquif»mtrnte

Saqir*«d OooanwrtS

Howto apply

T___

©■«£»

ftjula

This job is open to

Overview

The public
Open & dosing dates

Service

U.5. c Mens, njrwiaSwihQse wao wve stiBsrjnce to She

©12/09/202040 12/22/2020

Competitive

us.

Pay scale & grade

Salary

Clarification from the agency

AO Si

$64,545 to 5153 ,444 per year

AH U ni ted States Citizens and Nationals

Appointment type

Work schedule

Permanent

Full-Time

Apply
©H«la

8 Print

*J Share

Location
Announcement number

1 vacancy in the following location;

21-INS-10974613-AUSA
0 Indianapolis, IN

Relocation expenses reimbursed

Telework eligible

NO

No

Control n umber
585516200

©JtSlB

Duties
Summary
The home page for the US. Attorney's Office, Southern District of Indiana, may be accessed
at!; ftps:/,V.VAv.juscice.gov/usao/ins

This position I; located in Indianapolis, Indiana.

for more information on the Department of Justice and the united States Attorney's Offices, visitMc^/
rfa

m

As needed, additional positions may be filled using this announcement.

team more about this agency

Responsibilities
The attorney selected will be assigned to the Indiana polis, Indiana, office as part of the Criminal
Division and will prioritize the prosecution of violent crimes, firearms crimes, a nd drug crimes
including, but not limited to assignments within the purview of the District’s Project Safe
Neighborhoods and Opioids Management Coordination programs and related appellate practice
assignments. The Criminal Division is responsible fora wide variety of criminal matters including
financial crimes, firearms crimes, child exploitation crimes, narcotics, violent crimes, cybeperimes, and
immigration crimes,

Assistant United States Attorneys In the Criminal Division are prosecutors who work with law
enforcement agencies in criminal investigations of and represent the United States with respect to
criminal prosecutions of those who commit such offenses.

35a

VtT Save

fegj An official website of the United States government

USAJOBS

43 Sign in

Q Help

Q, Search

Assistant United States Attorney
DEPARTMENT OF JUSTICE

Eastern District of Oklahoma

6 He!o

This job is open to

Overview
Open & dosing dates

Service

© 12/04/2020 to 02/03/2021

Competitive

The public
U.S. citizens, nationals or those who owe allegiance to the
U.S.

Pay scale & grade

Salary

Clarification from the agency

AD 23

$68,773 to S167,422 peryear

All United States Citizens and Nationals

Appointment type

Work schedule

Term -12,5 Months

Full-Time

ec.
©ii£j2

Q Print

. Apply
^ Share

Location
Announcement number

few vacancies in the following location:

21-10980377-DE

0 Muskogee Countyy OK

Control number
Relocation expenses reimbursed

Telework eligible

No

No

586161500

©HSlfi

Duties
Summary
This is an open continuous announcement for 60 days, or until all positions are filled. It will be used to
fill immediate and future vacancies forthis district with multiple cut-off dates. The first pull being no
earlier than 5 days after the initial opening date of December 4, 2020, and thereafter as needed.
For more information on the Department of Justice and the United States Attorneys' Offices, visit www.i
ustice.gov/usaQ

This announcement is used to fill 12.5 month TERM appointments.
Learn more about this agency

Responsibilities
The United States Attorney's Office for the Eastern District of Oklahoma {USAOKE) is seeking an
experienced, motivated, and prosecution-minded attorney to join our Criminal Division. The USAOKE is
led by United States Attorney. Brian J. Kuester, and serves as the chief federal law enforcement office in
the District. The USAOKE h accountable to the citizens of the Eastern District of Oklahoma for pursuing
Justice, ensuring public safety, enforcing the law, protecting the interests of the United States, and
exercising stewardship of the government’s resources. The District is comprised of 26 counties in
eastern and southern Oklahoma, ranging from southeast of Tulsa, Oklahoma to the Texas border and
from the Arkansas border to Carter County on the west Due to the recent Supreme Court decision in
McGirt v. Oklahoma, the USAOKE is on the frontlines of a sea change in Indian Country criminal
jurisdiction. As a result, the successful candidate will have the unique opportunity to serve in a vibrant,
challenging, and evolving criminal prosecution division.

The successful candidate will direct the investigation and prosecution of a myriad of federal criminal
matters including crimes occurring within Indian Country. Prior criminal prosecution experience is
preferred. Assistant United States Attorneys are responsible for legal research and writing, directing
investigations, case development, and case presentation in criminal cases. To be an effective federal
prosecutor, the AUSA must possess excellent communication and organizational skills and the ability to
work closely with federal, state, local and tribal law enforcement agencies.

363.

tl? Save

APPOINTMENTS CLAUSE,
U.S. Const., Article II, Section 2, Clause 2:
He shall have Power, by and with the Advice and Consent
of the Senate, to make Treaties, provided two thirds of the
Senators present concur; and he shall nominate, and by
and with the Advice and Consent of the Senate, shall
appoint Ambassadors, other public Ministers and Consuls,
Judges of the supreme Court, and all other Officers of the
United States, whose Appointments are not herein
otherwise provided for, and which shall be established by
Law: but the Congress may by Law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads of
Departments.
OATH CLAUSE,
U.S. Const., Art. VI, cl. 3:
The Senators and Representatives before mentioned, and
the Members of the several State Legislatures, and all
executive and judicial Officers, both of the United States
and of the several States, shall be bound by Oath or
Affirmation, to support this Constitution; but no religious
Test shall ever be required as a Qualification to any Office
or public Trust under the United States.
COMMISSIONS CLAUSE,
U.S. Const., Art. II, § 3:
He shall from time to time give to the Congress
Information of the State of the Union, and recommend to
their Consideration such Measures as he shall judge
necessary and expedient; he may, on extraordinary
Occasions, convene both Houses, or either of them, and in
Case of Disagreement between them, with Respect to the

37a

Time of Adjournment, he may adjourn them to such Time
as he shall think proper; he shall receive Ambassadors and
other public Ministers; he shall take Care that the Laws be
faithfully executed, and shall Commission all the Officers
of the United States.
ARTICLE III JURISDICTION CLAUSE,
U.S. Const., Article III, Section 2, Clause 1:
The Judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be made,
under their Authority;—to all Cases affecting
Ambassadors, other public Ministers and Consuls;—to all
Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a
Party;—to Controversies between two or more States;—
between a State and Citizens of another State;—between
Citizens of different States,—between Citizens of the same
State claiming Lands under Grants of different States, and
between a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
5 U.S.C. § 2902
Section 2902 - Commission; where recorded
(c) The commissions of judicial officers and United States
attorneys and marshals, appointed by the President, by
and with the advice and consent of the Senate, and other
commissions which before August 8,1888, were prepared
at the Department of State on the requisition of the
Attorney General, shall be made out and recorded in the
Department of Justice under the seal of that department
and countersigned by the Attorney General. The
departmental seal may not be affixed to the commission
before the commission has been signed by the President.

38a

28 U.S.C. § 542
Section 542 - Assistant United States attorneys
[a) The Attorney General may appoint one or more
assistant United States attorneys in any district when the
public interest so requires.
[b] Each assistant United States attorney is subject to
removal by the Attorney General.
28 U.S.C. § 544:
Section 544 - Oath of office
Each United States attorney, assistant United States
attorney, and attorney appointed under section 543 of this
title, before taking office, shall take an oath to execute
faithfully his duties.
28 C.F.R. Sec. 0.15 [in relevant part]
§ 0.15 Deputy Attorney General
[a] The Deputy Attorney General is authorized to exercise
all the power and authority of the Attorney General, unless
any such power or authority is required by law to be
exercised by the Attorney General personally.
[b] The Deputy Attorney General shall advise and assist
the Attorney General in formulating and implementing
Department policies and programs and in providing
overall supervision and direction to all organizational
units of the Department. Subject to the general
supervision of the Attorney General, the Deputy Attorney
General shall direct the activities of organizational units as
assigned. In addition, the Deputy Attorney General shall:

39a

(1) Except as assigned to the Associate Attorney General
by § 0.19(a] [1], exercise the power and authority vested
in the Attorney General to take final action in matters
pertaining to:
(i) The appointment, employment, pay, separation, and
general administration of personnel, including attorneys,
in the Senior Executive Service or the equivalent; SeniorLevel and Scientific and Professional positions; and of
attorneys and law students regardless of grade or pay in
the Department.
(v) The appointment, employment, separation, and
general administration of Assistant United States
Attorneys and other attorneys to assist United States
Attorneys when the public interest so requires and the
fixing of their salaries.
(c) The Deputy Attorney General may redelegate the
authority provided in paragraphs (b)(l)(i), (ii), (iii), (v),
and paragraph (b)(2) of this section to take final action in
matters pertaining to the:
(2) Appointment, employment, pay, separation, and
general administration of attorneys and law students
regardless of grade or pay;
(5) Appointment, employment, separation, and general
administration of Assistant United States Attorneys and
other attorneys to assist United States Attorneys when the
public interest so requires and the fixing of their salaries;
and
(e) The officials to whom the Deputy Attorney General
delegates authority under paragraph (c) of this section
and any of the officials who may be otherwise authorized

40a

by the Deputy Attorney General to perform any other
attorney personnel duties may redelegate those
authorities and duties.

41a

